OIG Investigative Reports, Ghent Beauty Academy Owner Sentenced for Misapplication of Department of Education Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT OF VIRGINIA
FOR IMMEDIATE RELEASE
September 26, 2006
United States Attorney
Chuck Rosenberg
Contact:
Jim Rybicki
Public Information Officer
Tel: (703) 842-4050
Fax: (703) 549-5202
Ghent Beauty Academy Owner Sentenced for Misapplication
of Department of Education Funds
Norfolk, Virginia – William Nathan Harris, Jr., age 59, of
Portsmouth, Virginia, was sentenced to 24 months imprisonment and ordered to
pay $291,837 in restitution to the U.S. Department of Education, for his conviction
of misapplication of Department of Education funds. Chuck Rosenberg, United
States Attorney for the Eastern District of Virginia, made the announcement
after Harris' sentencing today.
Harris pled guilty on June 13, 2006, to the charge of misapplication of U.S.
Department of Education funds during the operation of Ghent Beauty Academy.
From July 2001 through July 2004, Harris received approximately $291,837 in
U.S. Department of Education Federal Student Aid. The federal funds came from
Pell Grants and Stafford Loans for students that were enrolled in ineligible
nail and barber programs, as well as from students that never attended or withdrew
from the school.
The investigation was conducted by the U.S. Department of Education, Office
of the Inspector General. Assistant United States Attorney Joseph DePadilla
prosecuted the case for the United States.
Printable view
Share this page
Last Modified: 09/27/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov